<html>
<title> - ADVANCING U.S. INTERESTS ABROAD: THE FY 2015 FOREIGN AFFAIRS BUDGET</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                   ADVANCING U.S. INTERESTS ABROAD: 
                   THE FY 2015 FOREIGN AFFAIRS BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 13, 2014

                               __________

                           Serial No. 113-151

                               __________

        Printed for the use of the Committee on Foreign Affairs







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

87-141PDF                      WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, Massachusetts
SCOTT PERRY, Pennsylvania            AMI BERA, California
STEVE STOCKMAN, Texas                ALAN S. LOWENTHAL, California
RON DeSANTIS, Florida                GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable John F. Kerry, Secretary of State, U.S. Department 
  of State.......................................................     4

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable John F. Kerry: Prepared statement..................     6

                                APPENDIX

Hearing notice...................................................    44
Hearing minutes..................................................    45
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    47
Written responses from the Honorable John F. Kerry to questions 
  submitted for the record by:
  The Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    48
  The Honorable Brad Sherman, a Representative in Congress from 
    the State of California......................................    52
  The Honorable Ted Poe, a Representative in Congress from the 
    State of Texas...............................................    55
  The Honorable Albio Sires, a Representative in Congress from 
    the State of New Jersey......................................    60
  The Honorable Matt Salmon, a Representative in Congress from 
    the State of Arizona.........................................    66
  The Honorable George Holding, a Representative in Congress from 
    the State of North Carolina..................................    68
  The Honorable Theodore E. Deutch, a Representative in Congress 
    from the State of Florida....................................    72
  The Honorable Brian Higgins, a Representative in Congress from 
    the State of New York........................................    74
  The Honorable David Cicilline, a Representative in Congress 
    from the State of Rhode Island...............................    76
  The Honorable Ami Bera, a Representative in Congress from the 
    State of California..........................................    89

 
                   ADVANCING U.S. INTERESTS ABROAD: 
                   THE FY 2015 FOREIGN AFFAIRS BUDGET

                              ----------                              


                        THURSDAY, MARCH 13, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 1:20 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing of the Committee on Foreign 
Affairs will come to order.
    We are again privileged to hear from Secretary of State 
John Kerry. Last year, Secretary Kerry spoke before our 
committee following a trip to Asia dealing with issues related 
to the North Korean regional crisis.
    Today, Russian regional aggression is at the forefront, and 
I am pleased that the House took a position and spoke very 
decisively this week condemning Russian actions in clear and 
unmistakable terms. The U.S. has a strong interest in a 
democratic and prosperous Ukraine. To that end, the House last 
week passed important legislation to bolster the troubled 
Ukrainian economy. The Senate should move on this legislation 
today, and leave IMF debates until later.
    While the committee is interested to hear about events in 
Ukraine, the purpose of this hearing is to question the 
Department's budget request for fiscal 2015. Needless to say, 
resources are tight and must be aligned with clear goals and 
objectives. This committee is responsible for oversight of how 
Department resources are spent, and we expect the Department to 
think strategically, not reactively. There is no margin for 
waste. There is no margin for abuse, and I am pleased that the 
Inspector General position was finally filled on a permanent 
basis after a 5-year vacancy. Mr. Secretary, thank you for 
hearing the request of this committee and acting.
    Last year, Secretary Kerry testified that the U.S. ``is the 
guardian of global security.'' Today, U.S. guardianship is 
frayed. Committee members are very concerned that Iran 
negotiations will leave the Iranian regime alarmingly close to 
a nuclear weapon. Syria, according to the United Nations, is 
the worst humanitarian crisis since Rwanda. Libya is failing 
and forgotten. In Egypt, we haven't pushed an economic reform 
agenda based on individual property rights that is desperately 
needed there. For Asia, a senior Pentagon official asserted the 
other week that because of budget constraints, America's high 
profile pivot to Asia ``is being looked at again, because 
candidly, it can't happen.'' Mr. Secretary, as always, the 
committee stands ready to work with you on these and other 
critical issues.
    The Department must do a better job of holding foreign 
assistance recipients accountable, ensuring that they are 
meeting benchmarks for reform and development, especially in 
countries like Afghanistan, where so much has been invested. 
Our assistance is not an entitlement; it is a sign of our 
willingness to help others help themselves.
    Nor should foreign assistance dominate our relationships 
with partners and with our allies. This committee's Electrify 
Africa legislation is an example of using assistance to improve 
the local investment environment while creating jobs here in 
the United States, all at a cost savings to the American 
taxpayer.
    Our efforts abroad must be aided by robust broadcasting to 
help advance our national interests. The current media climate 
is crowded with state media, like RT from Russia and CCTV from 
China, as well as non-state media like Hezbollah's television 
station. These are our competitors on the ideological 
battlefield, and as former Secretary Clinton told this 
committee, right now, we are losing. Reforming the Broadcasting 
Board of Governors is no longer an option, it is a requirement, 
and I am pleased to be working on legislation with my 
colleagues to do just that.
    Mr. Secretary, our Nation faces many challenges, and the 
difficulty of prioritizing is compounded by our fiscal crunch. 
Through it all though, I look forward to working together to 
ensure that America maintains the leadership role we both 
support.
    And I will now turn to Ranking Member Engel for any 
comments that he might have this afternoon.
    Mr. Engel. Thank you very much, Mr. Chairman, for holding 
this hearing to review the administration's Fiscal Year 2015 
international affairs budget request.
    Mr. Secretary, as ranking member, I want to welcome you. It 
is a pleasure to welcome you back to the committee. I want to 
begin by commending you for your tireless work on a wide range 
of critical issues. Your efforts underscore the great 
importance of continued U.S. engagement in the world and strong 
American leadership.
    At a time of crisis in the Middle East, Central Africa and 
now Europe, the internal affairs budget request supports our 
diplomatic and development efforts in these and other regions. 
It provides critical funding to strengthen our allies, fight 
the spread of infectious disease, combat terrorism, and support 
many other essential activities.
    The international affairs budget also stimulates job 
creation and economic growth here at home. By helping countries 
build their economies and develop free markets, we make it 
easier for American companies to sell their products abroad.
    The budget request also provides critical resources to help 
ensure the security of our diplomats and development workers. 
These brave men and women serve on the front lines every day, 
and we must ensure there is adequate funding to keep them safe.
    Finally, the international affairs budget includes 
humanitarian assistance that reflects the compassion and 
generosity of the American people. While we cannot solve all of 
the world's problems on our own, we have a moral obligation to 
help ensure that hungry children don't starve, that refugees 
displaced by war or natural disaster have basic shelter and 
that the poorest of the poor do not succumb to easily 
preventable diseases.
    All together, the international affairs budget accounts for 
less than 1 percent of the Federal budget. And let me repeat 
that: 1 percent of the Federal budget. In my view, that is a 
very sound investment in our security, economy and humanitarian 
goals.
    Secretary Kerry, I know you agree with me that the United 
States must maintain its leadership in global health. However, 
I am frustrated to see that the budget request proposes 
significant reductions to numerous global health programs. I 
would like to work with you to ensure that we have the funding 
necessary to maintain the tremendous gains that have been made 
in the fight against HIV/AIDS and tuberculosis and to address 
emerging threats, like pandemic influenza.
    Mr. Secretary, on Ukraine, I believe we must continue to 
stand up for Ukraine's sovereignty and territorial integrity, 
and make it clear to President Putin that there will be serious 
consequences for his aggression. Chairman Royce and I are 
drafting legislation on Ukraine, and we look forward to working 
with you to ensure that the United States provides a robust 
assistance package to the new Ukrainian Government and imposes 
appropriate sanctions against human rights abusers and those 
who are complicit in the violation of Ukraine's sovereignty.
    I am also deeply concerned about the ongoing crisis in 
Syria. Nearly 3 years after the start of the war, Assad remains 
in power and offshoots of al-Qaeda are growing stronger. 
Refugees continue to spill into neighboring countries, and we 
are all horrified by their stories of violence, torture and 
starvation. Secretary Kerry, I hope you will use this 
opportunity to discuss the administration's strategy to end the 
terrible conflict in Syria. Back in 2004, when I was able to 
get passed the Syria Accountability Act, we knew then that 
Assad was a bad player. We couldn't have imagined how bad he 
really is now.
    Iran remains among the biggest threats to our national 
security, even if negotiations resume next week with the P5+1. 
I hope these talks succeed, but I agree with you that our 
engagement with Tehran cannot be based on trust. Iran continues 
to be a bad actor on many fronts, supporting terrorism, 
violating human rights, and sowing instability in the region. 
We must keep that in mind as we negotiate on their nuclear 
program.
    I also want to recognize your efforts to facilitate a 
framework for peace between Israel and the Palestinians. There 
is still much work to be done, but you are helping to establish 
the foundation of what we hope will be a lasting agreement, and 
I hope there is sufficient political will to take meaningful 
steps toward a two-state solution. I must say that the Arab 
League's proclamation the other day that they will never 
recognize Israel as a Jewish state is very disheartening. In 
the meantime, I am glad that the budget request fully funds aid 
to Israel and provides for Israel's urgent security needs.
    And finally, here in our own hemisphere, I am deeply 
concerned by the Venezuelan Government's crack down on peaceful 
protesters and attack on press freedoms.
    And in Haiti, I am pleased that U.S. reconstruction 
assistance has accelerated, and I thank Chairman Royce for 
expanding our committee's oversight in this regard.
    So, thank you, Mr. Chairman. I look forward to the 
Secretary's testimony.
    Chairman Royce. Thank you, Mr. Engel.
    This afternoon, we are joined by Mr. John Kerry, the 68th 
Secretary of State. He has been there for just over a year now.
    Mr. Secretary, welcome again.
    And without objection, the Secretary's full prepared 
statement is made part of the record, and members will have 5 
calendar days to submit statements and questions and extraneous 
materials for the record.
    And if you could summarize your remarks, Mr. Secretary, we 
will soon face a short vote series on the floor. Thank you.

 STATEMENT OF THE HONORABLE JOHN F. KERRY, SECRETARY OF STATE, 
                    U.S. DEPARTMENT OF STATE

    Secretary Kerry. Well, Mr. Chairman, I appreciate that.
    Thank you very much for the privilege of being here with 
you.
    Ranking Member Engel and to all the members of the 
committee, it is a privilege for me to be able to be here with 
you today, and I hope to please you greatly at the outset by 
giving you one of the shortest renditions ever.
    I just want to start by saying thank you to all of you for 
your leadership, which is critical. We have a tough budget, 
nobody needs to be told that, but it has serious implications.
    I just want to say to you that it is a privilege for me to 
lead the 70,000-plus employees of USAID and the State 
Department all around the world, and we are including in that 
local employees, who are critical to our ability to be able to 
function in the 285 posts around the world. These men and women 
serve, not in uniform, but at great risk, and they serve our 
interests, our values, and do an enormous job in an 
increasingly complicated world.
    What I would just say to all of you very quickly is, look, 
we spend one penny of the U.S. taxpayer dollar on everything 
that we do abroad in terms of our diplomacy in the State 
Department and USAID. It is all our development, all of our 
money, all the things we do for disease, antipoverty, 1 penny 
on the dollar. I don't have to tell you, but I will just say 
very quickly, I am amazed by the return on that investment. And 
increasingly, as I have traveled around the world in the course 
of the last year, I have seen the degree to which people rely 
on the United States of America to be able to lead in instance 
after instance. I say that without any arrogance, without any 
chauvinism about, you know, the country. I say as a matter of 
fact, whether it is in Africa, Asia, South Central Asia, the 
Middle East, throughout the world, we play a critical role. And 
this committee, needless to say, is critical in what it is 
willing to authorize with respect to our ability to lead.
    The final comment I would make to you is that what we do 
really does make a difference, and increasingly in the State 
Department, I have focused and am focusing the efforts of our 
diplomacy on economics. We need to understand that in this 
increasingly growing marketplace, where more and more countries 
are chasing resources and opportunities are harder won, it is 
critical for us to be able to open up opportunities. And I 
could show you instance after instance where our Embassies or 
our consulates have engaged directly with American companies, 
helped them win contracts abroad in the multi-millions of 
dollars, hundreds of millions of dollars, and that means jobs 
here at home. It also means more security for the United States 
ultimately because of the relationships we build.
    I appreciate, Mr. Chairman, your adjusting the schedule a 
little bit here. The President, as you know, has asked me to 
leave in a few hours to go to London and meet with Foreign 
Minister Lavrov regarding the Ukraine, and he has asked to see 
me before I go, so I appreciate you moving the schedule up 
slightly. I know you have some vote challenges here, so I will 
end on that. We will submit the full testimony for the record, 
and I look forward to your questions.
    Chairman Royce. Well, thank you, Mr. Secretary.
    [The prepared statement of Secretary Kerry follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman Royce. Like you, we are focused right now on the 
Ukraine, and best of luck on your mission there. We have taken 
concerted action clearly condemning this act of Russian 
aggression there. We have supported legislation to bolster the 
economy there and to take certain steps, which I think will 
bring some leverage to bear, but there is one other step we 
could take that in my view would really give us a hammer over 
Russia: 52 percent of the support for their military and their 
budget and their government comes from their export of natural 
gas and oil overseas, and most of that is their monopoly 
position that they have in Eastern and Central Europe. And it 
does seem that if the administration would move to allow the 
export of natural gas into the Ukraine, that that would send a 
powerful signal that we could indeed do something here that 
would produce American jobs. After all, we are flaring a lot of 
gas here. We are actually capping a lot of our wells. If we 
exported that specifically to that market, it might take time, 
but once we made that signal, investors would then put up the 
terminals necessary for us to do it, and it would go into the 
calculus in Moscow about whether or not they wanted to lose 
that position. And it might bring them to the table. And I 
wanted to raise this issue with you.
    Secretary Kerry. Well, we are all for it, Mr. Chairman.
    In fact, the Department of Energy has the jurisdiction over 
this within the administration. They have issued six licenses 
already for 8.5 billion cubic feet per day to be exported to 
free trade and non-free-trade countries, including Europe. So 
it is a possibility.
    Now, the first major project to export gas is not going to 
take hold until sometime in 2015, so--but since we are in 
March, Ukraine's needs are, you know, such that they ought to 
be able to--if there is any manipulation of gas with respect to 
leverage by Russia, Ukraine will be able to weather it, and in 
the long-run, we are prepared and I hope others will be 
prepared to help shift the current energy dependency.
    Chairman Royce. I think that is great. Those six have been 
over a 3-year period, and it is only six. I think there are 24 
pending. So anything that could be done to accelerate that and 
actually open that up for Ukraine and Eastern Europe would be, 
I think, very helpful.
    Another issue I wanted to ask you about was Iran. We had a 
situation where several hundred rockets, long-range ones that 
would otherwise have threatened Israel were intercepted. They 
were coming from an Iranian arms shipment, and they were headed 
to Gaza. And to me, that is a much better indication of Iran's 
lack of good faith than anything they are signing at the 
negotiating table.
    But in terms of response to this particular violation, 
which is actually a violation of the U.N. requirement there on 
Iran, what will be the response at the U.N. Sanctions Committee 
and will the U.S. support additional terrorism sanctions as a 
result of Iran being caught in the act here with this 
violation?
    Secretary Kerry. Well, Mr. Chairman, obviously, we need to 
take some kind of action. And it has not yet been determined 
precisely what, but let me just say, we worked very, very 
closely with Israel in the discovery and then ultimately the 
apprehension of this ship. And we didn't do it because we don't 
want to create accountability. We want, obviously, to have the 
strictest accountability, so it is very much on the table. I 
can't tell you today what the decision will be, but I can tell 
you that we obviously take it very seriously, which is why we 
worked at it.
    And I don't disagree with you. You know, it underscores the 
reasons why we are so determined to put in place a no-nuclear-
weapon policy that is fail-safe in our ability to be able to 
make those judgments, because obviously, there is a clash of 
other interests that will not be reconciled by any nuclear 
deal.
    Chairman Royce. Lastly, Mr. Secretary, as you know, this 
committee has been at the forefront of the scourge of human 
trafficking. We have seen abuses involving the fraudulent 
recruitment of people overseas. They are promised decent jobs 
in the United States, but they find themselves trapped into 
forced labor or into sexual slavery once they get here to the 
United States.
    I have introduced legislation that would require State 
Department consular officials to glean more information and to 
share more information in order to get at the schemes of the 
syndicates that misrepresent these positions, and I hope that 
we can work together on this. I know you have been focused on 
human trafficking as well.
    Secretary Kerry. Mr. Chairman, thank you very much.
    Thank you for your leadership on this. It is really 
welcome. I have the privilege of chairing our all-government 
effort. The President has made this a major priority. And I 
chaired a meeting last year in which we reviewed every single 
department's efforts with respect to human trafficking.
    It is nothing less than modern day slavery. There are 
millions of people who are the victims of this human 
trafficking, and it is sometimes for sexual exploitation, but 
it is also for labor exploitation, and the marketplace is 
completely distorted and violated by virtue of this practice. 
There are work-slaves and sex-slaves and other--you know, 
family-help slaves, and others. It is a disgrace, and your 
legislation and other efforts need to empower us. We need to 
call greater attention to it. We need greater law enforcement 
effort, greater awareness, education, and so I appreciate your 
efforts on it and we will work with you very closely.
    Chairman Royce. Thank you, Mr. Secretary.
    We now go to Mr. Engel of New York.
    Mr. Engel. Thank you, Mr. Chairman.
    Mr. Secretary, I had the honor of meeting with the 
Ukrainian prime minister this morning, and he reiterated to us 
that obviously the United States is indispensable in terms of 
Ukraine, Ukraine's freedom and the aspirations of Ukraine to 
look westward rather than eastward.
    An observation I have had for quite some time is that the 
European Union, in its negotiations for affiliation with the 
Eastern Partnership, laid down a lot of stringent hoops that a 
country like Ukraine would have to jump through before they 
could join, before they could get the aid, before they could 
get whatever they needed. You contrast that with Putin saying, 
here's $15 billion, no strings attached. Here is cheap energy, 
we are going to give you that. It seems to me that the EU has 
sort of failed in the past to really even the playing field.
    And, of course, we are dealing with these countries that 
are right on the cusp, not only Ukraine, but Moldova, Georgia, 
Azerbaijan, Armenia, to some degree.
    Does the EU finally get it? Do they finally understand that 
making things harsher for these countries will only push them 
into the arms of Russia? Are we now dealing with a more even 
playing field because of what has happened?
    Secretary Kerry. Well, Congressman, let me begin by saying 
something that I think we need to think about as we approach 
this, it has been one of the problems in the entire evolution 
of this current situation in Ukraine, and that is looking 
westward versus looking eastward. We don't believe it has to be 
either/or. We do not believe it is a zero-sum game. And part of 
the problem, frankly, that has led up to this has been this 
kind of insistence that you have got to have all your eggs in 
this basket. No country should be doing that today. The 
marketplace just doesn't work that way, the world doesn't.
    We believe Russia has interests and has an ability to be 
able to be important to the development of Ukraine and so does 
Europe, and there is no reason why they shouldn't look in both 
directions. We do. We look east. We look west. We look north. 
We look south. And I think it is very important to be careful 
about those kinds of limits.
    Now, that said, it is appropriate to require reforms and 
transparency and accountability, and a progression by which 
countries begin to adopt good governance practices and good 
business practices at the same time, and that is really what 
the standard has been with respect to accession, and we 
certainly are supportive of that.
    Mr. Engel. But do we not risk--if a government that is pro-
West, and I understand we want to make Putin not feel that he 
is trapped, but I, frankly, would like Ukraine to look West 
instead of looking East. Are we not worried that if we put too 
many straitjackets on them of things they have to do, austerity 
measures and things like that, that we wind up turning the 
people against the very government that we think is reform-
minded and pro-West? Isn't that a problem----
    Secretary Kerry. No question----
    Mr. Engel [continuing]. Something we should be cognizant 
of?
    Secretary Kerry. There is no question, Congressman, that 
there is a limit to sort of what you want to do all at one 
time. And indeed, you can drive people away that way, no 
question about it. I mean, look how many years Turkey has been 
working to try to, you know, gain EU accession and so forth.
    So I think that it seems to me that there is a balance. It 
is up to the Europeans to determine that balance, not up to us 
to try to dictate it or tell them what it ought to be, but it 
seems to me that when I talk about ``Look East, look West,'' it 
is clear Ukrainians want to embrace the freedom, the choice, 
the sort of competitive atmosphere and the dynamics of social 
life and structure that come with the accession to the West. On 
the other hand, when I say, ``Look East, look West,'' I am 
talking about sort of the economic bottom line, the economic 
opportunities, trading, and so forth. And I think, in today's 
world, there are a lot of people in Russia who also are looking 
in different directions.
    Mr. Engel. And, Mr. Secretary, I mentioned in my opening 
remarks about the Arab League's rejection of recognizing Israel 
as a Jewish state. That is very disheartening, because it would 
seem to me----
    Secretary Kerry. Well----
    Mr. Engel [continuing]. That there are--that the way the 
stars have lined up, these countries should understand that 
Israel is not their enemy, Iran is their enemy. And Netanyahu 
has said that that is a prerequisite of any kind of a peace 
deal.
    You have said it yourself, Mr. Secretary, that they have to 
recognize Israel as a Jewish state. And let me say it is a 
Jewish state, the national state for the Jewish people with 
equal rights for all citizens. We are not implying that there 
should be second class citizens, but if they are not willing at 
this late date to recognize Israel as a Jewish state, which the 
United Nations Security Council resolution in 1947, dividing 
historic Palestine into what it called a Jewish state and an 
Arab state, if 66 years later, they are still not willing to 
recognize Israel as a Jewish state, then I don't know how we 
can make progress in these negotiations.
    Secretary Kerry. Well, Congressman, that is not the final 
vote. And I have had plenty of discussions with all of the 
members of the Arab League. The formulation that you just 
articulated was not the formulation that was put to them for 
that vote, and so I will maintain hope for the notion that when 
you talk about a Jewish state or a nation state for the Jewish 
people or homeland for the Jewish people, it is always 
accompanied by what you said, which is with equal rights and 
nondiscrimination with respect to any citizen, and I believe 
that if that had been the vote, you might conceivably have a 
different outcome.
    Chairman Royce. Thank you.
    We go now to Ileana Ros-Lehtinen from Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    Welcome back, Mr. Secretary.
    It is disappointing that in your submitted written 
statement for today's hearing, you failed to mention the 
ongoing over 1-month-long crisis in Venezuela. The 
administration has condemned Maduro's use of force against the 
peaceful protesters in Venezuela, but voicing a concern is not 
enough. One of the opposition leaders, Leopoldo Lopez, was 
unjustly arrested and has been imprisoned, isolated in a 
military jail now for 24 days as Maduro attempts to silence 
dissent in Venezuela. Three more people died yesterday as a 
result of Maduro's violent suppression, bringing the sad tally 
to two dozen dead since the protests began.
    The President issued an executive order that would impose 
sanctions against Russian officials responsible for human 
rights abuses, and I have written to the President asking that 
he do the same for Venezuela. Maduro continues to get help from 
the Castro regime, as you know. They have been sending Cuban 
troops to crack down on the Venezuelan protesters. Will the 
President hold these violators in Venezuela responsible and 
sanction individual human rights abusers in Venezuela?
    And continuing with the theme of accountability, Mr. 
Secretary, I have doubts that accountability and oversight over 
the Palestinian authority finances are actually taking place. 
As Ranking Member Engel just stated, Abu Mazen repeatedly 
reaffirms his refusal and unwillingness to recognize Israel as 
a Jewish state. He continues to pay nearly $5 million a year 
for the salaries of Palestinians who were imprisoned in Israeli 
jails, many of whom have blood on their hands. In fact, just 
yesterday, as you know, dozens of rockets were fired at Israel 
from Gaza. So this serves as a grim reminder that Israel 
continues to be under attack.
    And in the West Bank, hundreds of millions of taxpayer 
dollars continue to flow to the PA, wishing and hoping and 
praying that they will do the right thing. What are you doing 
to ensure that the PA recognizes and accepts Israel as a Jewish 
state? Money is fungible, so one could say that U.S. taxpayer 
dollars are being used to pay the salaries of these terrorists. 
Would you say that that is true?
    And the administration is still seeking a waiver authority 
to fund agencies at the United Nations that admit a non-
existent Palestine state. Abu Mazen has repeatedly reaffirmed 
that if the peace process fails to produce an agreement, the 
Palestinians will make a full out push at the U.N. to get 
statehood. You said that withholding our money would not deter 
Abu Mazen, but I say that it very clearly could deter U.N. 
agencies, so we cannot allow this waiver authority to undermine 
the peace process.
    And in addition, I would like to submit lastly for the 
record, a letter to President Obama requesting that the 
administration consider giving those at Camp Liberty in Iraq 
the opportunity to receive political refugee status for those 
who are eligible. So sanction, Abu Mazen and U.N.
    Thank you, Mr. Secretary.
    Secretary Kerry. Well, Congresswoman, that is a lot to 
handle very quickly, but I will try and do it as fast as I can, 
but let me just say to you on the issue of the oversight of the 
Palestinian Authority and their position on Israel, we begin 
with the premise that everything we are doing in this 
negotiation begins with Israel's security, which has 
paramount--it has to be addressed. And I think Prime Minister 
Netanyahu would tell you that we have bent over backwards and 
are working extremely closely with him in order to do that. 
Now----
    Ms. Ros-Lehtinen. If we could just segue, I am sorry, to 
Venezuela, then, Mr.----
    Secretary Kerry. Yeah, but I want to finish one thing on 
that, because it is really important. On this, our position is 
that Israel has to be recognized ultimately as a Jewish state, 
but please remember, they are negotiating. Nobody is going to 
give up. I mean, you know, by the same token, Prime Minister 
Netanyahu doesn't stand up and say, Hey, here is how I am going 
to give you Jerusalem or something. Everybody's negotiating, 
and they aren't going to make those decisions until they know 
what they are getting in other respects.
    On the next issue of the U.N. waiver, please, I got to tell 
you, this is a very one-sided event against us. Abu Mazen, if 
he writes a letter to the U.N., to 63 agencies, is 
automatically in them tomorrow, automatic. He is an observer 
state. That vote was taken: 140-something to, I think, 9; 140-
something to 9.
    Ms. Ros-Lehtinen. Yet we tried it in the budget to try to 
get U.N.----
    Secretary Kerry. I know. But----
    Ms. Ros-Lehtinen [continuing]. The money.
    Secretary Kerry [continuing]. I want to----
    Ms. Ros-Lehtinen. That was wrong of us.
    Secretary Kerry. What I want to explain to you is, whether 
or not the United States loses its vote and gets punished for 
him going is irrelevant to him. He will go, because it is a 
tool for him to be able to do things he hopes that will make 
life miserable for Israel----
    Ms. Ros-Lehtinen. But, Mr. Secretary----
    Secretary Kerry [continuing]. But not for us. If we lose 
our vote----
    Ms. Ros-Lehtinen [continuing]. We should not fund----
    Chairman Royce. I am going to----
    Ms. Ros-Lehtinen [continuing]. UNESCO if they do that.
    Secretary Kerry. I beg your pardon?
    Chairman Royce. I am going to make a suggestion.
    Ms. Ros-Lehtinen. We should not fund UNESCO when they do 
this.
    Chairman Royce. We are down----
    Secretary Kerry. Well----
    Chairman Royce [continuing]. To zero time left in the vote.
    Secretary Kerry. But if I can just say to you----
    Chairman Royce. Absolutely.
    Secretary Kerry [continuing]. This is not funding UNESCO. 
We are losing our vote. We can't defend Israel in UNESCO. We 
can't defend any of our other interests. We are not there. We 
are gone, because they went. And they will go again if they 
think it is in their best interest, and who will pay the price? 
The United States of America. We won't be able to vote. So I am 
just saying to you this is a wrong-headed effort for 
deterrence. It won't deter them. It will hurt us. We believe we 
need a waiver.
    Ms. Ros-Lehtinen. Thank you, and I hope we get to Venezuela 
in the next round. Thank you.
    Secretary Kerry. No. But I will just tell you, on 
Venezuela, we are absolutely in a--we need to and we are not 
only speaking out, but taking steps. Vice President Biden was 
just down in Chili for the swearing in of the new President. We 
met with a number of neighbor states down there. We are engaged 
now with trying to find a way to get the Maduro government to 
engage with their citizens, to treat them respectfully, to end 
this terror campaign against his own people, and to begin to 
hopefully respect human rights and the appropriate way of 
treating his people. And we are--we think it is time for the 
OAS, for the neighbors, for partners and other international 
organizations to all focus on Venezuela appropriately, hold 
them accountable.
    Chairman Royce. This committee will stand in recess 
temporarily for the floor votes, and we will return immediately 
after casting our vote on the last item in this series to 
reconvene our proceeding.
    Thank you, Mr. Secretary.
    Secretary Kerry. Thank you, sir.
    [Recess.]
    Chairman Royce. Without objection, I am going to go to Mr. 
Smith of New Jersey for 3 minutes.
    Mr. Smith. Thank you very much, Mr. Chairman.
    I will be very brief, because we don't have much time, but 
first of all, Secretary Kerry, thank you for your work on 
behalf of the Goldman Act and your personal intervention for 
many years in the case of Colin Bower. I had him sit right 
where you are sitting now, and he testified on behalf of his 
children who were abducted to Egypt, and thank you for helping 
that. The bill is now in the Senate. It was passed unanimously 
in the House, 398 to 0, and hopefully, it will not get hung up 
in any part of the process over in the Senate. Anything you can 
do to help on the Senate side would be deeply appreciated.
    We had a hearing on South Sudan, and Special Envoy Booth, 
Ambassador Booth testified. Some of our witnesses said that 
there is a need right now for a diplomatic surge, that this 
could get much worse. It already is very bad. Salva Kiir and 
all of the players there need to hear from us even more 
robustly. If you could maybe comment on that.
    And secondly, let me ask you, if I could, I have had four 
hearings on brain health related issues, one on the 
hydrocephalic condition as it affects mostly Africans. Some 
300,000 children have a hydrocephalic condition, and a very 
simple intervention developed by Dr. Benjamin Warf of Harvard 
is very inexpensive and can be rolled out very quickly in 
Africa. He has already, at Cure International in Uganda, saved 
the lives of 5,000 children, and they are now building up 
capacity as it relates to training neurosurgeons. There are 
almost no neurosurgeons in Africa; in East Africa, there is 1 
for every 10 million people, to give an example of the dearth 
of neurosurgeons.
    The other is the whole issue of Alzheimer's. We had three 
hearings on the global crisis of Alzheimer's that mirrors the 
HIV/AIDS pandemic in terms of raw numbers. One estimate from 
one of our witnesses just recently was that we could be at 135 
million Alzheimer's patients globally by the year 2050. Some 
put it lower at 115, but whatever it is, it is huge. The G-8 
summit was a step in the right direction. Please work with us, 
if you would, on the issue of developing perhaps a global fund, 
not unlike what we did with the issue of HIV/AIDS and the 
pandemic of malaria and TBI.
    I am almost out of time, so I will yield to our 
distinguished Secretary of State.
    Secretary Kerry. Well, Congressman Smith, first of all, I 
really thank you for your continued passion on these kinds of 
issues. And as you know, one of your witnesses was a 
constituent of mine from my days in the Senate, who I worked 
with very closely when his children were abducted, and it 
continues to this day. We are still working on this issue.
    We need accountability in countries on this issue. There 
are many, many more people abducted than anybody knows, taken 
away to a country of origin for a wife or husband, one or the 
other, and the American spouse is left completely without 
rights and without ability to access their children or child. 
And it is a very, very painful thing, and I have seen the cost 
of it, as you have. So I worked with you, obviously, on that 
legislation. I congratulate you for pursuing it.
    On the brain research, et cetera, and treatment, of course, 
we would be delighted to work with you. Obviously, the age old 
question is going to be resources. We are already crunching up 
on some resources on the global fund and people who are dealing 
with that issue, which we have been at for 10 years plus now 
with an amazing story--I mean, 1 million lives of children 
saved and so forth, it is quite extraordinary--but we are under 
resource pressure. So if you can help us with that here, 
particularly in the House and in the Senate, we will be your 
ally and partner.
    Chairman Royce. Thank you.
    Mr. Secretary, we missed Mr. Sherman of California. We are 
going to go to him for 5 minutes. And then, without objection, 
so that we have time for the junior members to ask more 
questions, we will go to 3 minutes per member. I will ask UC 
for that, and afterwards we will go immediately to Mr. Meeks.
    Mr. Sherman.
    Mr. Sherman. Mr. Secretary, like the last time you were 
here, I have got so many questions, that I am just going to go 
through the questions and ask you to respond for the record, 
and then my last question will be one I will ask you to respond 
to orally.
    I have noticed that U.S. diplomats are far less 
knowledgeable and far less concerned about commercial matters 
than are the officials of other foreign ministries and other 
diplomats that I have had a chance to deal with.
    Secretary Kerry. About which matters?
    Mr. Sherman. Commercial matters. And I am, therefore, 
pleased that you said that our diplomats have secured contracts 
for major American companies. In this room, I heard one of our 
very top diplomats boast as to how he had introduced the South 
Korean people to the Crossfire automobile and urged that they 
buy it, unaware that that automobile, made by Chrysler, or with 
the Chrysler name tag, was 98 percent German-made. And so I 
would hope you would furnish for the record what procedures we 
have so that our diplomats are pushing for U.S. jobs and U.S. 
value added, not just U.S. companies.
    In response to Eliot Engel, you put in kind of the 
accepting Israel as a Jewish state with rights for all people 
as kind of in the same category as negotiating about Jerusalem. 
I will point out that Israel has already made a very painful 
concession, and that is that there should be a sovereign 
Palestinian state, which is the home for the Palestinian Arabs, 
and I might add probably won't have equal rights for all 
people. So I would hope that you would either persuade the 
Palestinians to accept Israel as a Jewish state with rights for 
all or, alternatively, suggest to our Israeli friends that they 
withdraw the concession that they have already made that there 
should be a Palestinian state that is a home for the 
Palestinian people until such time as the Palestinians make 
that same concession or co-relative concession.
    As to Iran, the question I would ask you to answer for the 
record is how--what defines a bad deal? Would it be a bad deal 
if Iran had such stockpiles, such technology and such 
centrifuges so that in a year of breakout, they could produce a 
nuclear weapon?
    My next issue is this committee voted to provide $1 million 
and--that $1\1/2\ should be spent to communicate with the 
people of south Pakistan in the Sindhi language. I don't think 
there is a more important country for our national security 
than Pakistan, and yet we face a lot of push back from your 
Department saying, well, it is just easier to communicate with 
Urdu. If you are trying to sell something, you need to sell it 
in the language that your customer wants to hear.
    I commend you, Senator Kerry, for your incredible record of 
fighting for recognition of the Armenian genocide, and hope 
that, as Secretary Kerry, you will do likewise. And, of course, 
it was--the Azeri soldier that murdered a sleeping Armenian 
soldier at a NATO exercise that has been promoted and praised. 
And in light of that and other aggression, I hope that you 
would review and perhaps withdraw the idea of any military 
assistance to Azerbaijan. I would hope that you would also warn 
the Azeris that it is simply outrageous for them to threaten 
and shoot down civilian aircraft that try to fly into the 
Nagorno-Karabakh Airport.
    The phrase ``pivot to Asia'' sounds wonderful when people 
think it means trade delegations to Tokyo. I hope you would 
furnish for the record how we can be sure that this doesn't 
mean that we take the eye off the Islamic extremists that have 
killed many thousands of Americans and get captivated by 
fighting for rocks which are misnamed as islands that have been 
uninhabited throughout human history.
    I hope that--but finally as to the Ukraine, I hope that you 
would make it clear that the Senate should pass the House $1 
billion aid bill now, because the plan to load up IMF reform, 
which I know you very much support, and put that on the back of 
the Ukraine bill threatens to delay that bill for 3 legislative 
weeks, which I might add is 6 calendar weeks, and I don't think 
that--I think it is critical that we provide $1 billion of aid, 
both for financial reasons and to make a statement. And I 
wonder whether you could respond to that last one orally, time 
permitting.
    Secretary Kerry. Absolutely, but I want to take--you have 
pegged something that I don't want to leave any question about 
whatsoever. And I appreciate if you misunderstood it. I don't 
want to leave it hanging out there, and that is on the issue of 
any equivalency between Jerusalem or the other. There is none. 
And it wasn't meant in that way. It was purely that there are 
bargaining cards everybody has. But you are absolutely correct.
    The Jewish state was resolved in 1947 in Resolution 181, 
where there are more than 40--30 mentions of a Jewish state. In 
addition, Chairman Arafat, in 1988 and again in 2004, confirmed 
that he agreed it would be a Jewish state. And there are any 
other number of mentions, but those are the sort of most 
important acknowledgements thereof. I think it is a mistake for 
some people to be, you know, raising it again and again as the 
critical decider of their attitude toward the possibility of a 
state and peace, and we have obviously made that clear. That is 
a conversation that will continue. But Jerusalem is an entirely 
separate issue to be resolved entirely separately and has its 
own set of obviously deep concerns, and our position has been 
pretty clear on that.
    So, with respect to Ukraine and the aid, I want both, and I 
want them both now, but if I can't have one, we have got to 
have aid. We have just got to get the aid immediately. We can't 
be toying around here at a critical moment for Ukraine. And so, 
you know, I know how things work up here. I don't want to get 
into the politics in between, but I do, to the degree I get 
into it, I want to say, we need both, we need them now.
    Now, IMF, I know some people react, oh, my gosh, it is one 
of those multilateral deals and, boy, do we hate that and so 
forth. Folks, countries that have gotten aid from the IMF are 
today donor countries in the world. They are contributors to 
IMF. They are reformed. They are open market economies. They 
are more accountable than they would have been. They are more 
democratic than they would have been. This is our lever for 
encouraging democracy and this is our lever for creating 
transparency and accountability and pricing reforms and getting 
rid of subsidies and creating an open market. That is how we 
have done it.
    And if you look dispassionately, non-ideologically, at the 
record of countries that have gotten it, it is an amazing 
return on investment for America. We don't spend money and lose 
money. So I would urge people to do both, but, boy, do we need 
aid for Ukraine, and we need it now.
    Chairman Royce. We will go now to Mr. Meeks for 3 minutes, 
followed by Mr. Rohrabacher of California for 3 minutes.
    Mr. Meeks. Thank you.
    Mr. Secretary, let me first just say that I have been 
delighted to meet and talk to a numbers of members of the chief 
of mission, who don't get nearly the recognition that they 
should for the work that they do around the world on our 
behalf. They are just fantastic. Let me just see if I can ask 
these questions real quick, since I only have 3 minutes. Some 
are all over the place.
    One is, you talked about we spend basically a penny on the 
dollar. What help would it give, and as far as also influence 
in the region when we talk about--when we are talking about 
TTIP and making sure that we are getting involved with our 
European unions on that deal, or TPP in Asia, and does it--
would those kinds of deals, does it help or hurt the State 
Department how you are moving forward? Does it help with our 
influence in those regions, or does it hurt us? So I would like 
you for to just say, because we have those two bills that may 
be before us some time soon, but how does it affect with 
reference to the State Department? That is number one.
    But then going to more specifics with the budget, I notice 
that, for example, in Colombia, that our assistance is being 
cut by almost $80 million. And as you know, that President 
Santos is close to coming to a resolution with the 
Revolutionary Armed Forces, and so if their peace agreement is 
signed, it would be important to provide the Colombian 
Government with support for demobilization and reintegration 
programs. And that is particularly important to me, because a 
lot of that has to take place, especially in African-Colombian 
areas where many of these individuals will be going back into. 
And so if we were cutting those funds, we would be devastating 
the individuals still in that country that need the most help. 
So, you know, that $80 million is substantial.
    And lastly, of course, we had to down scale. There was a 
report that found that USAID had to down scale by 80 percent 
homes being built in Haiti after the devastation that took 
place there, the devastating earthquake. And of those 15,000 
homes that were originally planned for construction, it was 
reported that only 2,600 or so were expected to be built. 
Fortunately, I am told that reconstruction assistance has 
started to speed up with $1.4 billion of the now $2.4 billion 
disbursed. So my question is, my last question, how will the 
State Department further expedite assistance to Haiti?
    Secretary Kerry. Well, let me quickly touch on all three. 
We absolutely want you to not just talk about, but embrace TTIP 
and the TPP. These are essential ingredients of American 
projection of power and our economic well-being in the future. 
And, you know, you don't have to make a final judgment on the 
thing at this point. Look at the deal when it comes. And it has 
got to be one that passes muster, we understand that, but the 
fact is that if we can reach agreed-upon standards for trading 
with 40 percent of the world's market with respect to Asia, the 
fastest growing market in the world, and 40 percent of the rest 
of the world's market in Europe, which we have a commonality 
with in terms of our standards, et cetera, already, we are 
raising the standards globally of trade, increasing the 
opportunity for jobs and job opportunities for Americans and 
revitalizing our own economic prospects, not to mention 
Europe's. So we believe in this very deeply, and we hope people 
will see it as not just trade, but as security strategy, 
economic strategy, job strategy and so forth.
    On the issue of the cut to Colombia, it is very simple. 
Colombia has been successful. I can remember when I voted in 
the Senate for the first Plan Colombia. That was very 
controversial, and I voted for it. I thought it was the right 
thing to do, and now, I think that has been borne out. So we 
have been very successful in Colombia. We have money. There is 
increased capacity and security and development capacity in 
Colombia. They are understanding that. There comes a time when 
success means we don't have to continue to necessarily fund 
something. And we are very supportive of President Santos' 
peace efforts. Obviously, we want that to be successful.
    Finally, on Haiti, Haiti reflects money in the pipeline, 
and so we are being up front with you. We believe we have some 
money in ESF and the inkling that--you know, once that money is 
reduced, then we will come back and say, we need some money for 
Haiti. So we are not reducing the effort. There is no reduction 
in commitment. It is simply that there is some money in the 
pipeline and that should satisfy our needs for this year.
    Chairman Royce. Mr. Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much.
    And thank you, Mr. Secretary, for your hard work. We see 
you going all over the world working hard for us, and even if 
we have some areas of disagreement, we respect and are grateful 
to you for, you know, working so hard for your country. Thank 
you.
    Secretary Kerry. Thank you.
    Mr. Rohrabacher. A couple of issues. First is Camp Ashraf.
    Secretary Kerry. Yeah.
    Mr. Rohrabacher. And you have got our friends here in their 
yellow jackets. It is very clear that their group in Iraq have 
been attacked and murdered in great numbers and on several 
occasions, and that the current Government of Iraq is either in 
collusion with these murderers or at least they are turning 
their back and letting this happen.
    I have a piece of legislation, H.R. 3707, which would grant 
asylum to these people in Camp Ashraf who are obviously in 
danger. Is the administration supporting this concept in this 
legislation?
    Secretary Kerry. Congressman, let me just say, first of 
all, there is one solution to the problem of what is now Camp 
Hurriya, formerly Ashraf, and the answer is, and I have been 
concerned about it since I was a Senator, we need to relocate 
those folks.
    Mr. Rohrabacher. My legislation says relocate them here. 
Why not?
    Secretary Kerry. We are looking----
    Mr. Rohrabacher. They are in danger.
    Secretary Kerry. That is one of the things we are looking 
at. We have managed--I have appointed a special envoy/advisor 
with respect to this. He is a very competent counsel from here 
in Washington. He has been working on it full time.
    Mr. Rohrabacher. We need to get on this, Mr. Secretary----
    Secretary Kerry. That is exactly what we are doing. We 
have----
    Mr. Rohrabacher. Before more of them die.
    Secretary Kerry. We have 210 who are now being transferred 
to Albania. We have about another 100 going to Germany.
    Mr. Rohrabacher. Okay.
    Secretary Kerry. And we are now looking at the process here 
internally. We are working with UNAMI, with UNHCR, the 
Government of Iraq, other relevant authorities, but right now, 
the White House, Department of Homeland Security and other 
relevant agencies are looking at how many we might be able to 
take care of ourselves.
    Mr. Rohrabacher. I would hope that, within 30 days, if all 
these things that you have talked about have not come to 
fruition, that we decide to act and bring them here so at least 
they will be safe. Otherwise, the blood of these murdered 
innocent people are on our hands.
    Another issue, Dr. Afridi, the man who helped us bring to 
justice Osama Bin Laden, who slaughtered 3,000 American 
citizens, Pakistan has arrested Dr. Afridi. And even now, after 
all of this time and all these complaints and all of this 
negotiation, he is still in a dungeon. This does not speak well 
for the people who would side with the United States if we let 
Dr. Afridi, the ultimate hero in the fight against radical 
Islamic terrorism.
    My question to you is, number one, how can we possibly give 
the amount of aid you are proposing, actually a $1.3 billion in 
aid, both military and civilian aid, to Pakistan, how can we 
possibly do that when they are holding Dr. Afridi, which is a 
hostile act to the United States, and basically is an insult to 
those people who died on 9/11?
    Secretary Kerry. Congressman, this is a very relevant issue 
that I have raised personally with the leadership of Pakistan. 
I believe, at some point, we are going to break through and 
justice will be done, which means he will be appropriately 
released and free to leave.
    But you say, how can we give the aid? We have got a lot of 
interests with Pakistan. It is a nuclear nation. We are trying 
to work with them with respect to nuclear restraint and also 
with India and other issues. We are conducting counterterrorism 
efforts in that country that are vital to us with respect to 
al-Qaeda. We are engaged in major efforts. They have been very 
helpful with us, actually, in trying to work to bring the 
Taliban to the table if that were indeed possible. There are 
lots of efforts. Our basic supply line to our troops in 
Afghanistan starts in Karachi and goes through Pakistan. So 
these are the things that sometimes you have to weigh and 
balance.
    I believe the development of the country for many different 
reasons as a peaceful, stable democracy is very, very critical. 
They just had their first peaceful transfer of power from one 
President to another at the ballot box, the first time since 
1948. Other times, there have been coups and killings and 
imprisonments. This was a peaceful democratic election. And so 
I think that it is important for us to think about the long-
term, not just one issue.
    But we raise and are pushing Dr. Afridi's cause. He should 
be free.
    Chairman Royce. We go now to Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here today. This past 
Sunday marked the seventh anniversary of the disappearance of 
my constituent, Robert Levinson, from Kish Island in Iran. 
Monday marked Bob's 66th birthday, another birthday spent 
without his family.
    I know how committed you are, Mr. Secretary, to returning 
Bob to his family, and I thank you for your statement of 
support this past weekend. And I know that you and Under 
Secretary Sherman continue to raise this case when you meet 
with the Iranians. I would just ask that you please keep Bob at 
the highest priority level in all of your meetings and 
discussions with the Iranian leadership. We must use every 
single opportunity to press for information and cooperation 
that will lead to his safe return.
    Mr. Secretary, as you know, also in recent days, 60 rockets 
were fired from Gaza into southern Israel, some striking near 
schools and libraries. Islamic Jihad, a militant group funded 
by Iran, immediately claimed responsibility. The attacks come 
just a week after Israeli officials intercepted an Iranian 
shipment of 40 short-range rockets, 181 heavy mortars, 400,000 
bullets and dozens of M-203 surface-to-air missiles bound for 
Islamic Jihad in Gaza. According to Israel's head of military 
intelligence, Hezbollah, an Iranian proxy, now has as many as 
100,000 rockets pointed at Israel and is actively engaged on 
the ground in Syria in support of the Assad regime. Iran has 
spent billions of dollars on arms and members of its elite Quds 
force in Syria. And now, despite the parameters set forth in 
the interim nuclear agreement, statements reported out of Iran 
this week indicate that Iran may now be unwilling to discuss 
outstanding questions on the possible military dimensions of 
their nuclear program. According to The Wall Street Journal, 
Iran's Deputy Foreign Minister made clear that there is no rush 
to discuss these issues, possibly in an attempt to force the 
P5+1 to extend the interim agreement by showing adherence to 
other parts of the Joint Plan of Action.
    Please assure us that the United States and our allies will 
not allow negotiations to extend beyond 6 months if Iran 
refused to address the possible military dimensions of its 
nuclear program.
    And finally, Mr. Secretary, if you could just respond in 
writing to this last point. I am increasingly concerned that 
there is a presumptive bias against young Israelis seeking to 
travel to the United States. Reports indicate that because of 
widespread visa denials, many student-aged travelers simply no 
longer apply to come to the United States. In fact, on Embassy 
Tel Aviv's Web site, there are videos warning young travelers 
about the risks of violating the terms of their visas. And 
while I understand that there are cases where the terms of 
tourist visas are violated, this does not mean that our policy 
should be to profile young Israelis and to arbitrarily or, as 
many have suggested, uniformly deny student-age Israelis, 
citizens of one of our closest allies, the opportunity to visit 
the United States.
    I would ask if the policy of presumptive denials exists 
with any other country, and I would appreciate you getting back 
to us in writing with the refusal rates of tourist visa 
applications by age from 16 to 30 over the past 5 years. And I 
appreciate you being here.
    Secretary Kerry. Happy to do so. Look, Israel is a vital 
partner of ours, obviously. In the last year, over 100,000 
visas of all ages were issued; 20,000 were issued to Israelis 
ages 21 to 30 in each of the last fiscal years, issuance rates 
about 83 percent, which is not different from other folks or 
other places. So we will be happy to give you greater input on 
that if you want it, but I can guarantee you that these 
applications are treated fairly and similarly in all places.
    With respect to the Gaza and Hezbollah, it is a huge 
concern. I don't know if it is 100,000 or 80,000. A few years 
ago everybody was throwing around the number 40,000; it grew to 
60,000. Definitely an increase, huge increase. Huge threat. 
Major problem. Based in southern Lebanon and in the Bekaa 
Valley. And Assad has been transferring many of these weapons 
to them, and they have come through Iran.
    So it is a double-prong problem. It is one of the reasons 
why, when I came before you months ago, I was arguing so 
vociferously that we needed to pay attention to this overall 
Syria picture, because it is bigger than just the question of 
Syria. And this is an example of it.
    And finally, on the Iran negotiations, we are working at 
defining those components of the military aspects of the 
program which we can legitimately fold under, and we are not 
going to ignore them. Warheads, for instance, are an obvious 
one. Certain kinds of R&D, other examples. And we believe we 
interpret appropriately that the U.N. resolutions, as well as 
the Joint Agreement--JPOA, as we call it--both allow for and 
call for addressing of certain of the military aspects of this.
    Now, some people assert that goes to every single class of 
missile or something. I am not sure it would legitimately do 
that, to be honest with you. But certainly warhead. And there 
are military components of this that we are going to have to 
address in it.
    Chairman Royce. I would like to ask the members to be 
cognizant of their time limit and leave the Secretary time to 
answer their questions within that allotted 3 minutes, because 
the Secretary is going to be forced to leave, as you know. He 
is going to go overseas due to the Ukraine crisis, and we would 
like to be able to recognize as many members here as possible 
in our limited time.
    With that, we will go to Mr. Chabot of Ohio.
    Secretary Kerry. Mr. Chairman, would it help you--I want to 
hear from as many members as possible, and if you like, I can 
take the questions seriatim and so that we can answer them for 
everybody.
    Chairman Royce. May I suggest, though, if I just stick to 
the clock, that might be the best way to go.
    Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman.
    I want to thank the Secretary for his continuing focus on 
the Asia-Pacific region. I happen to be the chair of 
Subcommittee on Asia and the Pacific, and as the chairman 
knows, the chairman led a codel recently to that part of the 
world with Mr. Sherman and a number of our colleagues here. I 
think we learned a great deal and it showed our continued 
engagement with that part of the world.
    We have intended to hold a number of hearings about that 
trip and some other issues. I am not holding you responsible 
for this, Mr. Secretary, but we are having some trouble. I am 
disappointed, to some degree, in the lack of cooperation we 
have had with some of your folks. Despite repeated requests, 
our staff has been unable to get a briefing on the Fiscal Year 
2015 East Asia and Pacific budget, and we have also been unable 
to schedule a hearing on North Korea because of lack of 
cooperation--and I am hearing similar concerns from others. I 
know you can't be involved in the day-to-day activities but if 
you could check with your folks and if we could get some 
assurance that they will cooperate on getting these things set 
up, I would greatly appreciate that.
    Secondly, a number of administration officials, including 
the Assistant Secretary of Defense for Acquisition, have 
recently made comments that the rebalance to Asia needs to be 
reexamined. These statements come at a time when our regional 
friends and allies articulate lingering concerns about the 
sustainability of increased U.S. engagement in the region, 
especially with the administration's recent push to cut back on 
our military.
    The East Asia and Pacific Fiscal Year 2015 budget request 
states that one of the top strategic priorities is solidifying 
key bilateral relationships, and I would like to know which 
countries this applies to? How you are going to solidify that?
    Finally--and Mr. Royce already mentioned this, but I think 
it deserves another mention at least--it seems to me that from 
a U.S. perspective that it would make sense for us to 
ultimately be a net exporter of liquefied natural gas. We could 
produce more energy to be exported to our strategic partners in 
Asia and Europe and in the process, we could create more jobs 
here at home and more energy independence and strengthen our 
bilateral ties so that some of these important countries, and 
our European allies, might not be so dependent upon the bully 
Putin. I would urge the administration to look into that. You 
already mentioned that. And I know you have got 27 seconds to 
address all three questions.
    Secretary Kerry. We will get the hearings done, or 
briefing, whatever the issue is. We will take care of it.
    With respect to a rebalance, the 2015 request is $1.4 
billion, which is an 8-percent increase over last year. So I 
don't know who is suggesting we are not going to do that. I 
have made five trips already to the region. I was just there a 
couple of weeks ago in Korea and China. The President is going 
out there before very long. We are very focused, we are totally 
committed, and we are going to continue the rebalance.
    Now, that is not going to come at the expense of Europe or 
the expense of other places. It is in addition to. We have to 
do more. We are living in a world where we have to do more. And 
it is a conflict, obviously, with where we are with our budget, 
and you all are going to have to wrestle with that as we go 
forward.
    We all are going to have to do that. We have to talk about 
that, because, you know, it is critical that we project and 
remain active, and people want us to, particularly in Asia. 
South China Sea issues, the challenge of a rising China and the 
disputes in that area were critical to the free navigation and 
the peacefulness of that area. So I just want you to know that 
we remain completely committed to that.
    On the LNG, all for it. The one thing people got to look 
at, I don't have the answer to this, there is a point where our 
exports could get to a level where it has an effect on your 
folks at home in terms of price at home, and you have got to 
look at what that differential is. I don't know where it is, 
but at some point that could have an impact.
    Chairman Royce. We will go to Mr. Higgins of New York.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Secretary, the President's budget includes a $350 
million increase for worldwide security protection account, 
which is obviously a good thing. I mean, protecting Americans, 
diplomats and humanitarian workers across the globe should be a 
major priority for our country.
    However, for those who perished, more must be done to 
secure justice. One such man, John Granville from Buffalo, New 
York, was a diplomat with the United States Agency for 
International Development. He was promoting and working toward 
free elections in South Sudan at the time of his death 6 years 
ago.
    He was in the Sudanese capital of Khartoum. Four Islamic 
extremists murdered John and his driver. They were captured, 
and they were convicted; however, they escaped from prison. Two 
remain at large, and the State Department has issued a $5 
million reward for information leading to their capture. 
Meanwhile in February, the Sudanese Government pardoned the man 
who helped them escape.
    The United States deserves better. John Granville and his 
family deserve better. I have urged the President of Sudan to 
repeal the pardon, and we will continue to oppose efforts to 
delist Sudan from the state sponsors of terrorism.
    Could you provide an update on the efforts to capture his 
killers either verbally or through writing?
    Secretary Kerry. Yes. The two individuals who were alleged 
to have carried out this attack or carried out the attack have 
been designated by us as specially designated global terrorists 
designation. They have been fugitives since the June 2010 
escape from prison in Khartoum, and despite Interpol notices 
and efforts, they have not yet been captured.
    We want to encourage their recapture, and with the 
designation we are trying to emphasize to everybody everywhere 
that we are going to pursue people, and that justice will be 
done. And so we are committed that they be returned to prison 
and serve out sentences, and that is what we are trying to do.
    Mr. Higgins. I yield back.
    Chairman Royce. Okay. We go to Mr. Joe Wilson, South 
Carolina.
    Mr. Wilson. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for taking the time to speak with 
us today about the President's budget for the Department of 
State. Clearly, this is a chaotic and dangerous time for the 
Department as America faces many challenges around the world 
with the Benghazi murder still unsolved.
    While we have you here, I share in everyone's concern about 
the ongoing situation between Ukraine and Russia. Peace is 
threatened by President Putin's regional aggression. I believe 
it is of paramount importance that the United States exhibit 
strength and determination toward the Russian Federation. 
However, the disastrous decision by the President and his 
budget to halt progress on the Mixed Oxide Fuel Fabrication 
Facility, the MOX Facility, at the Savannah River Site will 
allow the Russians the option to stop disposition of 34 metric 
tons of excess weapons-grade plutonium.
    Over the weekend USA Today ran a story in which Secretary 
Ernest Moniz of the Department of Energy commented, ``At the 
right time,'' the U.S. will have to reengage in plutonium 
disposition discussions with the Russians. He went on to say, 
``Now may not be the right time.''
    My question is, when will we be able to have these 
negotiations? If we back down on our end of the agreement, what 
assurances do we have that Russia's excess material won't end 
up in the wrong hands?
    Secretary Kerry. Look, that is an excellent question. I 
honestly need to get deeper briefed on exactly what that 
decision was, how it was made and why. So let me find out, and 
we will get back to you.
    Mr. Wilson. Well, thank you so much, because this is 
crucial. And, indeed, I was very grateful the Aiken Standard, 
local paper at home, Derrek Asberry on Saturday, wrote from the 
World Nuclear News that Russia is moving forward in 
constructing a fast reactor that will dispose of the high-grade 
weapons-grade plutonium; but at the same time, we are 
apparently ceasing our activities with the closure of MOX. And 
so this is just an issue that should be addressed, and I 
appreciate you looking into that.
    Additionally, in the past week we have had where the 
Iranian Foreign Minister said that it was an illusion that 
there would be the end to enrichment activities by Iran. 
Additionally, we had Israel seize a ship which had long-range 
rockets. It was an Iranian shipment to Hamas terrorists in 
Gaza.
    In light of that--and I agree with Ranking Member Eliot 
Engel, you can't trust Tehran, and we know the young people of 
Iran want to live in a nontyrannical society--why shouldn't we 
be reinstituting and pushing for harder sanctions in light of 
what has just happened in the last week?
    Secretary Kerry. Well, as you know, we do sanction Iran for 
other activities other than nuclear, and there is nothing to 
suggest that we shouldn't take a step with respect to that. We 
sanctioned them for state sponsor of terror, and they are 
already sanctioned under that, and this fits under that banner, 
obviously.
    So we haven't said no. You know, we are still trying to 
get--we have to get to the bottom of what is in it, how much, 
all this kind of stuff, and where it came from and tracking, 
because you have some fairly rigid standards that have to be 
applied legally when you make that determination.
    But that said, let me come back to a comment you made about 
the ship and the overall issue of Iran and not trusting them. I 
have said before, and I really want to emphasize to everybody 
here, nothing that we are doing with respect to this 
negotiation is based on trust. I have said, in fact I have 
quoted, I said, ``Ronald Reagan said trust, but verify.'' Our 
motto in this instance is verify, but verify.
    We are asking for the deepest, most extensive verification, 
inspection, accountability measures that have ever been put in 
place with respect to ascertaining what they are up to. So I 
can assure you, whether it is a ship or elsewhere, we are going 
to be pressing very, very hard for the insights necessary to 
grant to----
    Mr. Wilson. We will have a study about the missiles and 
have a determination about these missiles?
    Secretary Kerry. Beg your pardon?
    Mr. Wilson. We will have a study about these missiles and 
have a determination----
    Secretary Kerry. Well, we will make a determination. I 
can't tell you what--you know, I haven't reviewed all the 
options yet. I have not had a proposal put on my desk, and I 
haven't put one on the President's, but absolutely this kind of 
behavior is not appropriate and unacceptable.
    Chairman Royce. William Keating of Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman.
    I would like to thank the Secretary, and I would like to 
thank Assistant Secretary Nuland for your leadership in Europe 
and Eurasia, including Ukraine.
    Now, I recently introduced a resolution with Congressman 
Poe to encourage Georgia's inclusion into NATO's Membership 
Action Plan. And I appreciate your efforts, Mr. Secretary, and 
the administration's efforts to support this goal.
    That being said, given what is happening in Ukraine, what 
has already happened in Abkhazia and South Ossetia, do you 
think that this is the right moment to actively push some of 
our European partners toward this goal?
    Second question, if I could. I am also concerned about the 
often violent situation in Belfast over the past year and the 
failure of the five parties to agree to a December 2013 draft 
of the Northern Ireland peace accord. What are your thoughts on 
the draft of the Northern Ireland peace accord and the 
rationale leading the State Department's decision to eliminate 
funding for both the Mitchell Scholarship Program, which I know 
you have been a strong supporter of, and the International Fund 
for Ireland?
    Secretary Kerry. Well, we are going to look at--we are 
looking at the fund for Ireland piece because I think that, you 
know, we have our friends from Ireland coming in this Friday 
for meetings tomorrow. I won't be here to take part in them, 
but we are going to be reviewing where we are with respect to 
the current impasse.
    And things have come, unfortunately, to, you know, a little 
bit of a standoff, stalemate, if you will, on further 
implementation of the peace process. So we need to take stock, 
renew our commitments, get back on track, and it may be that 
the fund is going to be an essential ingredient for doing that. 
We have got to make that determination.
    On your question about Europe, pushing them toward the 
goal, I missed that. I apologize, I didn't hear what goal you 
were talking about.
    Mr. Keating. About Georgia's advancement into the 
Membership Action Plan with NATO.
    Secretary Kerry. Oh. We are continuing--those are all under 
review and under a constant process of helping those countries 
to be able to meet those standards that are available. Now, 
when you said pushing them, they have got to do their own set 
of decision making in order to meet the standards, and they 
know what they are. People are working with them.
    But there are government reforms, there are 
accountabilities, certain standards, different things have to 
happen for that process, and that has been salutary for those 
who have made the leap and joined, and it is very much open to 
them at this point in time. There are a whole bunch of people, 
Bosnia, Herzegovina, Kosovo, so forth, the Balkans, where this 
is true, and other places like Georgia.
    Mr. Keating. Thank you. I yield back.
    Chairman Royce. We will go now to Mr. Ted Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman.
    Mr. Secretary, I am concerned about a lot of things. In 3 
minutes I am going to try to get a couple of them and let you 
have the rest of the time to answer.
    Pakistan, we give them money, they persecute the Baluch, 
and they have for a good number of years. Mr. Rohrabacher and 
myself and other members are very concerned about the 
persecution of this group of people.
    As Mr. Keating pointed out about Georgia, the Russians 
first moved into Moldova; then Georgia, one-third of the 
country is taken by the Russians; and now Ukraine.
    And the third concern I have is about the MEK. When you 
were here in April last year, since you were here then, I 
talked, asked you questions about it, then again in December. 
There have been 62 members of the MEK in Iraq that have been 
murdered.
    The question, twofold: Ukraine, were we surprised that the 
Russians moved into Ukraine; if not, when did we know the 
Russians were going to invade another country? And then on the 
MEK, when is State Department going to make a decision to allow 
members of the MEK that are stuck in Iraq to come to the United 
States? When will that decision be made? Those are my two 
questions.
    Secretary Kerry. Well, that decision is under review right 
now. As I said earlier, you may not have been here----
    Mr. Poe. I know what you said earlier, that it is under 
review, but when are you going to decide to make the decision 
to either allow them to come in or not come in?
    Secretary Kerry. Homeland Security and the White House and 
other agencies, Justice, for instance, are engaged in an 
analysis of, you know, whether or not that can be done based on 
our judgments with respect to how many and whether it works. 
So----
    Mr. Poe. Are you going to require or not they renounce 
their membership in the MEK as a precondition?
    Secretary Kerry. I don't know the answer to that yet.
    Mr. Poe. Okay.
    Secretary Kerry. I think the key is to make certain that we 
are following the standards and procedures by which people are 
admitted to the United States, and that takes some vetting and 
so forth.
    Now, there are urgent circumstances here, and I have 
acknowledged those. Their safety is as risk; no question about 
it. And we want to move them out of Iraq as rapidly as 
possible, and that is one of the reasons why I have appointed 
somebody full time to be working on this. We have gone to a 
number of countries.
    And frankly, I will be very up front about it. One of the 
reasons we are urgently now reviewing this is people sort of 
say, well, how many are you taking? And that is an appropriate 
question to ask, and it deserves an answer.
    Mr. Poe. Excuse me, Secretary, reclaiming my time. In the 
last 20 seconds, when did we know about the Russian's invasion 
of Ukraine?
    Secretary Kerry. Well, we knew about their movement of 
troops in there the minute it began to happen. But they have a 
basing agreement, and under their basing agreement, they are 
permitted to have up to 25,000 troops there. They currently 
have somewhere in the vicinity of 20,000 or so. That is 
including the increase.
    So they were perfectly within their limits of their base 
agreement, and in the initial stages in the inquiries that were 
made of them, that is what they said: We are moving because we 
have threats against some of our people; we are not planning to 
do X, Y or Z; we are not going into East Ukraine; it is not an 
invasion. And obviously, that has evolved. And so, you know, 
fait accompli.
    We understand what it is, and we understand exactly, you 
know, what they have done, which is precisely why the President 
has already issued an initial set of Executive Orders and 
created visa bans. And if we are not successful tomorrow in 
finding a way forward, and the referendum which we all 
anticipate which is going to take place on Sunday is done 
without some path forward, there are going to be serious 
repercussions. So that is where we are.
    The President has made it clear we take this very, very 
seriously, as do, I might add, all of our European partners. I 
was on a conference call with my counterpart foreign ministers 
this morning, and they are united and strong and determined 
that there will be consequences if we cannot find some way to 
diffuse this.
    Chairman Royce. David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for your extraordinary service to 
our country and for your being here today with our committee.
    I am going to submit a series of written questions that 
relate to Armenia, Nagorno-Karabakh and Azerbaijan, to the 
Lajes Air Force Base and the U.S. Consulate in Ponta Delgada in 
the Azores, some questions relating to the Middle East peace 
process, our national ocean policy, the importance of continued 
attention to defense sales, and finally to State Department's 
ongoing efforts to protect the human rights of LGBT individuals 
around the world, especially in countries such as Nigeria and 
Uganda. So I will do those in writing.
    And I would just ask you in the time that I have to really 
comment on two areas. One is U.N. peacekeeping functions. As 
you know, we are at least $350 million behind in our 
peacekeeping dues from Fiscal Year 2014. Your budget proposal 
brings us closer to fulfilling our financial obligations to 
U.N. peacekeeping. But if you could just speak to the 
importance of this funding and how our arrears impacts on our 
ability to pursue our interests at the U.N. and around the 
world.
    And the second issue I would like you to touch upon is, as 
you know from certainly your long service in the Senate, we and 
other developed countries jointly committed in the United 
Nations Framework Convention on Climate Change to $30 billion 
in assistance between 2010 and 2012 to help mobilize $100 
billion in public and private funds by 2020 to address the 
causes and the impact of climate change. After that the United 
States elevated climate change as a development priority, and I 
wondered if you would speak to how your budget reflects those 
priorities and might help us realize those objectives, in 1 
minute and 12 seconds. I apologize.
    Secretary Kerry. Well, we are extremely focused--I will 
take climate change first. We are extremely focused on the 
climate change. We have money for research for mitigation 
efforts. And we are gearing up--as you know, I just came back 
from China where we agreed to jointly work together in order to 
set the target dates for 2015, and the President is laying down 
his climate action agenda. It is an all-government effort. So 
the budget actually doesn't reflect everything because every 
department is being called on to do things with respect to 
climate change.
    On the issue of the U.N. peacekeeping, the request that we 
put in to you is $753 million above the 2014 request, and that 
is primarily because of increases to meet our commitments for 
Mali, Somalia, and South Sudan. In addition, we have to fund 
all the missions at the U.N. assessment rate, which is 28.4 
percent, not the 27-point-something percent we pay. So there is 
a gap. And finally, we are adjusting for one-time offsets that 
are being used to cover our bills. This time there is $218 
million for that.
    So we are pulling down on some of our peacekeeping, East 
Timor, Liberia, Haiti, Cote d'Ivoire, several others, as the 
troop levels decline and as the need declines. But we have 
increased efforts in Africa in a number of different places, 
the Central African Republic, the Great Lakes region, South 
Sudan, and so forth. So the demands from the U.N. have grown, 
and the money has gone the opposite way.
    Chairman Royce. Matt Salmon of Arizona.
    Mr. Salmon. Thank you.
    Mr. Secretary, it is my honor to serve on the subcommittee, 
the Western Hemisphere Subcommittee, on this full committee, 
and as such, I am deeply troubled by the lack of clear vision 
and strategy in the region. Don't get me wrong, you have many 
skilled diplomats operating throughout the region, but I fear 
the lack of coherent strategy and appropriate engagement comes 
from the top.
    In the last year, Cuba has been caught red-handed violating 
U.N. sanctions and shipping weapons to North Korea through the 
Panama Canal. Venezuelan opposition leaders and students are 
being imprisoned without charges, and demonstrators are being 
beaten and even killed by government forces, all for opposing 
Maduro's failed economic policies and the overall dismal state 
of their economy.
    Ecuador and Bolivia have booted out our USAID missions, and 
our diplomats are inexplicably walking on eggshells for 
constant fear of expulsion.
    Drug trafficking and violence through Central America 
continues to increase, and the Russians have docked a warship 
in Havana's harbor. These are just a few of the events 
happening in the Western Hemisphere.
    Meanwhile, the administration's response to these regional 
challenges has been muted at best. Attempts to utilize our 
membership with multilateral organizations to hold these 
regional bad actors accountable have not been successful.
    In the case of Venezuela, the Organization of American 
States--by the way, American taxpayers fund at least 40 percent 
of their operating budget--issued a shamefully weak statement 
on the violence happening in Venezuela and did nothing to 
oppose the human rights violations happening there or to 
support the demonstrators' right to freedom of expression.
    Given the ineffectiveness of the OAS, I am not sure I can 
justify to my constituents continued funding for such an 
feckless organization. Furthermore, the U.N. has had to take 
strong action to punish the Cubans for violating U.N. sanctions 
and selling the North Koreans weapons right at our back door. I 
was recently heartened by the U.N. report that was recently 
released on this incident, but I strongly urge you to make sure 
that Cubans pay a significant price for thumbing their nose at 
international sanctions.
    Meanwhile, as Central America struggles with increased 
drug-smuggling activity and the corresponding violence, USAID 
is helping Guatemala by buying them solar panels. Really?
    To wrap up my point, Mr. Secretary, we need a better 
strategy in the Western Hemisphere and a renewed engagement and 
understanding that our national security is on the line if we 
don't start paying attention to our hemisphere. I hope you will 
take this on board and then share with us what that vision will 
look like and how it advances our national security.
    Finally, recently you stated in a speech that climate 
change is increasingly a national security threat. With all due 
respect, Mr. Secretary, given everything that is happening 
around the globe today, do you really believe that? I would 
submit to you that around the world, liberty and economic 
freedom are being threatened by tyrants, and those yearning for 
freedom are looking to the U.S. for leadership in defense of 
liberty, but instead USAID is offering solar panels. I believe 
that is an affront to the U.S. taxpayer and an insult to those 
seeking freedom around the world.
    Secretary Kerry. Well, Congressman, freedom also means the 
freedom to be able to eat and live where you live. And we have 
people who have just come back from meetings in the Pacific 
Islands where they are losing that ability because of the level 
of high tides that regularly destroy their homes and flood 
their communities.
    Freedom means the freedom to eat and have food, and 
increasingly food security is at risk because of global climate 
change. The fact is, our countries, they are going to run out 
of water, and there are nations that might have wars over 
water. There will be climate refugees in various parts of the 
world. There already are people fighting over water in places 
like Sudan and elsewhere.
    You know, the fact is that everybody has a right to the 
preservation of the ecosystem of the planet from which we live. 
You wouldn't have life on this planet if it weren't for the 
oceans. The oceans are increasingly at risk, at least the 
ecosystem within them. Fisheries overfish, unbelievable 
acidification taking place because of the pollution that goes 
into the ocean.
    So I just say to you, you know, there is a reason that 
General Zinni, who used to be our CENTCOM Commander, stood up 
and said climate change is a national security issue. There is 
a reason that the Pentagon, until recently for budgeting, had 
an office to deal with this issue, to make plans for the future 
for the changes that are going to take place in terms of 
security, you know? There are all kinds of implications.
    So I strongly urge you to recognize that if the things 
continue to happen that are already happening, as a matter of 
scientific fact, not my imagination; when countless scientists 
come together and all agree that X, Y and Z is happening, and 
happening now, and happening to a greater degree than it was 
before and faster than they predicted, you ought to step back 
and look at it.
    And, you know, the worst that can happen to everybody in 
the world if I am wrong, and Al Gore is wrong, and scientists 
are wrong, and the U.N. is wrong and countless communities are 
wrong is that we make a decision to have cleaner air, better 
health, you know, more jobs, new energy, energy independence. 
That is what happens. But if the guys who say it isn't 
happening are wrong, life as we know it on this Earth can 
literally end.
    So you have got a choice, and I think it is pretty clear 
where the President and I are putting that choice. Is it an 
instrument of destruction on a global basis? I was in the 
Philippines where Typhoon Haiyan hit. And I will tell you, man, 
I have never seen devastation like that wreaked in as few 
minutes, and what happened to the trees stripped off the 
mountaintops and the entire community, several hundred thousand 
people displaced. So we have to pay attention to it, and that 
is where I am coming from.
    Chairman Royce. Let's go to Mr. Grayson of Florida.
    Mr. Grayson. Mr. Secretary, if a free and fair election 
were held in the Crimea between being part of Russia and being 
part of Ukraine, what would be the result?
    Secretary Kerry. A free and fair election? Well, that is an 
oxymoron right now anyway, when you are invaded by 20,000 
troops, and you know. I have no doubt that people would vote 
for a greater affiliation with Russia. There is no question in 
my mind about that. But you can't consider an election in the 
face of troops, and hastily put together in a few weeks without 
any debate, and also contrary to international law and contrary 
to the constitution of Ukraine as a free and fair election.
    Mr. Grayson. Well, hypothetically, if 90 percent of the 
people in the Crimea wanted to join Russia, what does that tell 
us about U.S. foreign policy in the region?
    Secretary Kerry. It doesn't say anything about U.S. foreign 
policy. It says everything about history and culture and 
language and what they are believing. It is not a reflection of 
U.S. foreign policy; it is a reflection of a relationship that 
has existed for centuries.
    Ukraine used to be part of Russia for centuries. It has 
only been part of Ukraine--Crimea only part of Ukraine for 22 
years, whatever, I mean, you know, formally. A little longer 
than that, excuse me. It has only been formally--in 1954, 
Khrushchev gave it to Ukraine as a ``gift'' but it was ratified 
and approved and subsequently passed on by the Duma in Russia 
formally accepting that.
    So there is no doubt that they feel a huge tie to Russia. 
That can be reflected and respected without invading, you know, 
with your troops and having an election at the point of a gun.
    Mr. Grayson. Does the U.S. have any vital national security 
interests in seeing whether Crimea is part of the Ukraine or 
Russia?
    Secretary Kerry. I think we have a vital national security 
interest in upholding international law, and in upholding the 
norms for international behavior, and not allowing somebody at 
the point of a gun to reverse settled lines of nations and to 
reverse the Constitution of a Democratic country and a country 
aspiring for greater democracy. Yes, I think we have a vital 
interest in that.
    But there is a difference as to whether it is an interest 
that rises to the level of, you know, deploying troops versus 
deploying economic measures and other kinds of choices that are 
available to us.
    Mr. Grayson. Well, tell us how you draw that line.
    Secretary Kerry. Well, I draw that line--do we believe that 
a nuclear war is worth fighting over Crimea? That would be a 
very tough question to resolve. I think most Americans would 
resolve it fairly fast. But on the other hand, most Americans 
would also agree very quickly nations should not behave the way 
Russia has, and they ought to pay a price if they choose to.
    Mr. Grayson. Is the principle of self-determination in play 
here?
    Secretary Kerry. It could be if it were done properly. An 
example of that would be what has taken place in--what is going 
to take place in the United Kingdom, where the Parliament has 
approved the right of Scotland to have an independence 
referendum. But it has been done through the appropriate 
mechanism. The Constitution of Ukraine requires that any effort 
by any entity within Ukraine to secede be done through the 
constitutional process.
    If Russia were to say, we think they ought to have 
additional autonomy, ought to be respected, the affiliation 
with us ought to be more clearly defined, there are plenty of 
ways for us, through the U.N., through multilateral efforts, 
through Ukraine-Russia discussions, to find out if there is an 
appropriate way to resolve that. You don't do it--I mean, in 
the 19th century and 20th century, we learned the way to do it 
is not by invading a country and forcibly arbitrarily changing 
those lines.
    Chairman Royce. Jeff Duncan of South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman.
    Mr. Secretary, you have been clear about your opinion 
regarding Iran's nuclear ambitions, but you haven't been clear 
about your position with regard to Iran's activity in the 
Western Hemisphere.
    Specifically, there was a bill signed by the President in 
late 2011 dealing with countering the Iranian threat in the 
Western Hemisphere, and a report that was put out by the State 
Department. And specifically, do you believe that Argentine 
prosecutor Alberto Nisman's report on the AMIA bombings in the 
1990s should be taken in consideration by the State Department 
as they reevaluate the Iranian threat here in this hemisphere?
    Secretary Kerry. Well, anything that is relevant to the 
Iranian threat in the hemisphere ought to be taken into 
account. And we have been looking at this issue of Iran in the 
Western Hemisphere, and there is some evidence, obviously, of 
that. And they have been playing for a certain period of time. 
It is not clear if that has grown at this point or continuing 
at the same level.
    But this gives me a chance to come back to the question 
earlier about the hemisphere and Venezuela and so forth. Look, 
I have been in this job now for just over a year, and my 
initial effort when I went down to the OAS meeting and have 
engaged was to try to meet with the Foreign Minister of 
Venezuela and sort of say, you know, what are we really 
fighting about? We are for healthcare, you know, assistance for 
your citizens; we are for economic transformation; we are for 
freedom of speech, these kinds of things; we ought to be able 
to find some means of cooperation. And there was an agreement 
to sort of begin that tentative effort to try to see if we 
could find common ground.
    Next thing we knew, bad habits were being pursued again, 
and the folks in Venezuela were simply lobbying grenades--you 
know, figurative diplomatic and political grenades at us, 
ideological grenades.
    Mr. Duncan. Yes, sir, that is what concerns me about the 
bad habits, because Mr. Nisman in Argentina points specifically 
to Hezbollah and Iran's activity with being attributable to the 
bombings there in Buenos Aires that killed Argentine and Jewish 
and other lives.
    So are you familiar with the report, and do you think the 
State Department----
    Secretary Kerry. I have not read the report, no.
    Mr. Duncan. I appreciate it. And I would ask that the State 
Department circle back up with me on that.
    Let me just ask a question on a different line, because I 
am concerned about Argentina. And they are seeking to reopen 
the spigots of international aid without doing anything to 
solve the bigger problem, and that is that its policies remain 
hostile to meaningful private investment.
    And so my question in the remaining time is what are you 
doing to urge Argentina to meet its obligations and settle with 
its creditors?
    Secretary Kerry. We have been urging them to do exactly 
that. And we have, as you know, been amicus briefed on a number 
of different cases. We are pressing very hard to see that they 
do that. They have a responsibility to do it. They owe about--I 
think it is about $600 million are owed to us, our folks, and 
we are working on a way to deal with their----
    Mr. Duncan. Thank you. I appreciate that. And I hope the 
State Department can continue to be more forceful with that.
    Chairman Royce. Bradley Schneider of Illinois.
    Mr. Schneider. Thank you.
    And, Mr. Secretary, thank you for being here. As you said 
in your opening prepared remarks, what we do in the world 
matters. And what you and people on your staff and team do here 
and around the world are crucial.
    We are here talking about the Fiscal Year 2015 budget; 
however, global affairs don't necessarily follow a fiscal year 
calendar, and there are three deadlines looming in the coming 
months that I think are incredibly important. First, in the 
spring, the current round of negotiations between the Israelis 
and the Palestinians; June 30 is the deadline for the removal 
of chemical weapons from Syria; July 20 we then see the 
conclusion of the 6 months on the joint plan of action with 
Iran.
    At the same time, around that region, we have a series of 
very concerning trends with Egypt and its government, the chaos 
in the Sinai, the pressures on Jordan because of Syria, what is 
happening in Turkey, even what is happening in sub-Saharan 
Africa leading to refugees into the region.
    So my questions in a very brief amount of time is all of 
these deadlines, whether they are successful or unsuccessful, 
and the assumptions are 50/50 in many cases, are going to have 
serious implications and financial demands, fiscal demands on 
the United States and the world. Do you believe that the budget 
as proposed here for Fiscal Year 2015 provides the resources 
and flexibility for the State Department, for you to do what is 
necessary for a successful outcome?
    Secretary Kerry. Congressman, that is a terrific question, 
well thought through in terms of noticing the confluence of all 
of those dates. You are absolutely correct; big things are 
potentially going to happen all in short order, one way or the 
other. And the answer is profoundly no, I don't believe we are 
adequately resourced. But, you know, this is the best budget we 
can get under the circumstances of the budget deal that was cut 
up here. It is not the budget we need.
    Mr. Schneider. Thank you.
    Secretary Kerry. And I will just say to you, if we are 
successful, if we can move forward on the Middle East, that is 
going to require some real thoughtfulness up here about how we 
are prepared to support the Middle East peace process.
    Mr. Schneider. Let me extend on that. As we do move 
forward, I hope, and I know I am joined by my colleagues here, 
that with the negotiations of the Palestinians, paramount, as 
has been said before, the security of Israel as the nation 
state of the Jewish people, that the joint plan of action is an 
interim deal that does not become a permanent deal; and that we 
as a country, the United States, remains fully committed to 
ensuring that Iran does not achieve its goal of a nuclear 
weapons capability, and that all options remain on the table in 
that respect; and that the status of chemical weapons in Syria 
by June 30 is dealt with and dealt with directly.
    And finally, if I can, my last second, echoing some of the 
other things that have been said, ask for your follow-up on the 
status of visas for young Israelis of student age.
    Thank you. I yield back.
    Secretary Kerry. Thank you very much.
    Chairman Royce. And we will go to Mr. Kinzinger of 
Illinois.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here. You keep up a very 
intense schedule, and it is going to continue today, and so I 
want to thank you both for your service in the past in uniform 
and your long service as a civilian. So I want to say that.
    I want to make a couple of points with a question. The 
first point I want to make is remind everybody that to an 
extent, the situation in the Ukraine was created by the 
Russians a long time ago, and so now when they claim that they 
have these interests of people in eastern Ukraine, that was a 
situation created by them.
    I was shocked to hear a colleague earlier actually 
seemingly defend the actions of Russia, and actually my jaw 
kind of hit the floor, and I wondered if the same colleague 
would have defended the Iraq invasion of Kuwait on the basis of 
Iraq saying that they have national interests.
    One comment on Afghanistan. Karzai is gone soon. It is 
probably a good development for the region, I hope, and I want 
to say I hope that the United States is committed to the 
bilateral security agreement. I think we are. Hopefully the new 
President there signs that, and we can move forward.
    I want to talk about Iraq. I obviously have been very 
critical of the pullout of Iraq, but without revisiting that, 
we are where we are today. I want to ask you, Mr. Secretary, 
how you see the situation in Iraq today with ISIS.
    And then specifically from your Department's perspective, I 
know there is still a robust State presence in Iraq. What are 
the challenges State faces there? What are some of the needs? 
And as Members of Congress, what can we be aware of to ensure 
that we can resist Iraq going in a place that we don't want it 
to go?
    Secretary Kerry. Well, Congressman, thank you very much. 
Thank you for your service, which I really respect enormously. 
And I am grateful to you for the question.
    Iraq is in a fragile place, but it's not--Iraq would have 
been in a fragile place no matter what, because it was--you 
know, turned topsy-turvy through the war where you had a Sunni 
minority that for centuries, I mean really for centuries, had 
governed at the expense of the Iraq--of the Shia majority, vast 
majority, and suddenly that was reversed. And all of a sudden 
you not only had that reversal, but you had an Iranian nexus 
that was accented in this connection, which raised the 
suspicions of the rest of Sunni world, a lot of other nations 
in the region, and it exacerbated a divide in terms of this 
competition for influence, Iran and its influence.
    And now with Syria, that has been even more complicated, 
because you have the Islamic State of Iraq and the Levant, 
which is pulling people out of Iraq, and you have got a certain 
amount of Iraqis in Syria as part of this sectarian conflict.
    And so it is fragile. And that is what has happened in 
Fallujah, and in, you know, Ramadi and so forth is this 
resurgence of the sectarianism in its most violent form.
    Now, that is complicated by the way in which, 
unfortunately, the government has chosen to govern without an 
inclusivity that is necessary, without resolving some of the 
age-old issues of the Constitution, and the oil and so forth, 
the oil revenues. Then, of course, you have the Kurds cutting 
their own deals on the side with Turkey or elsewhere, and there 
are just a lot of tensions pulling at each other. So it is very 
fragile right now; it is a fragile moment.
    You have flights coming out of Iran, which we continually 
talk to the Prime Minister about, the need to be--that should 
be stopped. They are not. There is an occasional inspection, 
which is a phony inspection in which people are tipped off, and 
it doesn't really do anything.
    So we are pushing very hard. We have an outstanding 
Ambassador, Ambassador Beecroft, on the ground. We have an 
outstanding Assistant Secretary, Brett McGurk, who is 
constantly out there, working very, very hard at this 
personally. Vice President Biden is on the phone. I am on the 
phone. We are deeply involved in trying to push these issues 
into a place where they can be resolved, and where we pull the 
government along to reach out and govern more effectively and 
resolve some of these kinds of issues.
    I am convinced personally every one of these issues would 
be on the table no matter whether there were a few troops 
there, 10,000, whatever. The troops aren't the difference. Iraq 
has to resolve Iraq's future, and the Iraqis have to do that. 
The same thing ultimately will have to happen in Afghanistan.
    Chairman Royce. We go now to Joe Kennedy from 
Massachusetts.
    Mr. Kennedy. Mr. Secretary, good to see you again. Thank 
you for your extraordinary service to our country in many 
forms, as my colleague indicated.
    I wanted to ask you, just follow up really on comments from 
my colleagues in three areas if I can. First and foremost, 
Egypt. We have heard some very troubling press reports even 
just this week. The Washington Post had a very troubling 
article, I believe it was on Monday, indicating thousands that 
were arrested and thousands held without charge. It was 
happening--I think a direct quote, ``They are just putting 
people in jail, and it is happening all at once.''
    Obviously, Mr. Secretary, this is an issue that strikes us 
here at home. Congressman Smith referenced your former 
constituent when you were a Senator in Massachusetts, now my 
constituent, Colin Bower, and how that is affecting U.S. 
interests. So if you can just give us a little bit of a 
forecast as to what you see going on in Egypt and really how we 
can be even more effective going forward.
    Two, building off on Mr. Kinzinger's question about 
Afghanistan and the BSA, if you can shine any light as to how 
those negotiations are going, or if they are going at all at 
this point.
    And then three, this committee had a hearing about 8 months 
ago or so after the conflict in Mali. And I was struck by, as 
you are probably well aware, the median age in Mali is about 
16; in Niger, it is 15. Throughout much of Northern Africa it 
is in the late teens, early twenties. And as you move eastward, 
including the area along the Mediterranean, you are getting 
close to 200 million people with the median ages in the early 
twenties or so.
    What can we be doing from a long-term perspective to make 
sure we are not having hearings about crises, whether it is 
Algeria or Mali, whether it is the seizures over oil rigs or 
attempted coups, to make sure that there is a long-term 
strategy put in place for the long-term development of not just 
this region, but the world.
    Secretary Kerry. Well, Congressman, that last question is 
the big question that all of us need to be dealing with and 
coping with. President Obama is analyzing that now and has 
asked us to look at it very, very closely and help to design 
the agenda. I am pushing my people to do that. We are really 
intensely focused on this question of huge populations in these 
volatile areas under the age of 30; you said the median age is 
15, but huge, 60 percent under the age of 30, 50 percent under 
the age of 21, so forth, and were less--were more, excuse me.
    Now, if they don't have jobs, and they don't have 
opportunity, and they are disenfranchised, and the only thing 
available to them is radical extreme Islam, religious 
extremism, et cetera, we have got a long road ahead of us, all 
of us. And therefore, we have to think carefully about how much 
it is in our security interest as well as in our long-term 
economic interest to be trying to get ahead of this and deal 
with it in ways now, which we have done effectively in various 
places historically, and we are not doing it there.
    Just very quickly on Egypt--on the BSA, there is an article 
today somewhere, you know, President Karzai has basically 
attached conditions to the signing of it. It is not at issue. 
The BSA is negotiated. He is not trying to change a word in it. 
He is simply refusing to sign it unless X, Y and Z happens in 
the country, and the things he has chosen to have happen are 
not going to happen easily, if at all, and they are out of our 
control.
    So each of the candidates running for President has said 
they support the BSA, they will sign it, and I expect it will 
be signed at some point in time, if not by Karzai, by one of 
them.
    Egypt is very, very challenging right now. It is vital that 
the interim government take measures in order to permit young 
people to be able to demonstrate, people to be able to take 
part in the political system. We cannot be arresting activists. 
We cannot see journalists arrested. Those things need to 
change. I hope they will.
    We would like to see them be successful. It is vital to all 
of us that Egypt be successful. And we need one-quarter of the 
Arab world to find its footing now and get a government in 
place, move to this democratic process, stabilize hopefully, 
and begin to develop. But there are very troubling issues that 
need to be resolved with in terms of people's rights and 
protections in Egyptian society.
    Chairman Royce. We have enough time for Mr. Holding. If you 
take 2 minutes to ask your questions, and then Mr. Lowenthal 
take 2 minutes to ask your question, we will allow the 
Secretary to respond, and then we know he has his appointment.
    George.
    Mr. Holding. Yes, sir. Usually, by the time it gets to me, 
Mr. Secretary, all the important topics have been covered at 
least twice, but conspicuously, we haven't talked about the 
world's largest democracy today. As you know, within a month or 
so almost 800 million people are going to go to the polls and 
choose a new government in India. Wall Street Journal recently 
said that the Congress Party will suffer more than likely 
overwhelming defeat, and more than likely the BJP Party will 
form a government with Narendra Modi at the head of it.
    What are you doing to put us in a good place with our 
relations with India, with the BJP government; and how much do 
you think we will have as a setback the issue with Modi's visa 
status and us denying a visa to him; and where do you see that 
we sit with that right now?
    Secretary Kerry. Well, I am not going to comment on that 
part of it, if you don't mind, simply because it is before the 
election, and I don't want anything I say here to play into the 
election in any way that it should or shouldn't.
    We respect that democracy. We respect India. We have worked 
hard to get over the hiccup we had recently with respect to a 
diplomat in New York. Our Assistant Secretary has just returned 
from a trip to India. We are very, very anxious, a very 
important relationship, very, very vital country in terms of 
the region and globally, and we have big issues to work on 
together.
    Mr. Holding. If I could ask you one quick question in the 
last 16 seconds. Do you disagree with Israel's assessment that 
the weapons recently intercepted were coming from Iran?
    Secretary Kerry. No, I don't, based on superficial 
evidence. But we want to pin things down in terms of legal. 
But, no, I don't.
    Chairman Royce. Mr. Lowenthal.
    Mr. Lowenthal. Thank you, Mr. Secretary, for joining us and 
for spending so much time, and I will shorten my questions.
    We sometimes provide assistance to countries with startling 
human rights records. We have talked much about that today. For 
example, I am most interested in that the Government of Vietnam 
has been ranked as one of the 10 worst countries for press 
freedom. In addition, Vietnam has undertaken authoritarian and 
undemocratic assault, on Internet freedoms, on censoring, on 
restricted usage of the Internet.
    How do we balance, Mr. Secretary, our goals of stability 
and prosperity for developing countries with our duty to 
protect the human rights of all people? So, for example, what 
are we doing to leverage what was in this budget, the increased 
economic developmental assistance to Vietnam, with our goal 
that they should begin to end human rights violations? Is there 
a balance?
    And the second question has to do with overseas security 
for employee engagement. Post-Benghazi we had a hearing here. 
The Department of State made a number of efforts to improve the 
physical security of our Foreign Service employees overseas. 
However, over the years our diplomatic presence, as we have 
heard, has become more difficult, employees find that they are 
less accessible, and employees working out of facilities are 
finding it more difficult to actually engage in the contacts 
with their locals.
    What is the Department doing to ensure that employees can 
continue to engage and do their work that they have really been 
sent overseas to do? How can they raise and even challenge what 
they feel sometimes to be overly onerous security requirements?
    Secretary Kerry. Well, Congressman, that is a really good 
question, and it takes a little longer to answer than I have, 
so I am going to submit much of it in writing. But I will say 
to you, we are constantly working this issue. We are deeply 
concerned about it ourselves. There is a tradeoff and a balance 
between security and the ability to get out and do the job. So 
we are providing more security.
    And I can't tell you, we have a number of Embassies where 
people are working in very difficult circumstances, and we have 
been--sort of receded to compounds in certain places rather 
than people being able to live out in the community and so 
forth. These are the risks that we live with today.
    So we have increased Marine guard protection. We have 
tighter rules about movement. We have certain restrictions in 
certain places. It is very difficult, something the committee, 
you know, might look at in detail at some point in time. It 
costs more, and that is part of the budget challenge here, to 
keep that presence out there and keep people being out there.
    We have higher costs for security, higher costs for the 
physical structures, higher costs for the deployments. Some of 
them are now hardship deployments where the families don't 
follow; you know, it is unaccompanied tour. Those are 
difficult. So all of this is, you know, more expensive and more 
complicated, administer headaches, and we need to talk throw 
how we are going to manage it.
    On Vietnam, we are deepening our relationship and working 
hard, I just was there not so long ago, and working on a number 
of initiatives together. President Obama and President Sang 
announced a comprehensive partnership initiative. But the truth 
is, and we are very clear about it, every meeting we have, we 
talk about human rights and race cases and talk about the needs 
to move forward. Vietnam still has authorities who are 
excessively restrictive of political rights, excessively 
restraining on freedom of expression and on the Internet and so 
forth.
    Now, there were some modest improvements during the year, 
last year, 2013, including the release of the well-known legal 
activist, Le Cong Dinh; and Vietnam signed the Convention 
against Torture; and there was an increase in Protestant Church 
registrations, church.
    When I went there, most recently, I went to mass in Ho Chi 
Minh City, and it was a pretty normal kind of event. It was 
not--you know, didn't create the stir it might have some years 
ago.
    So we think we can make more progress. They have more to 
do. To their credit, they are listening, and they are working 
at it, you know. The pace, we think, could be picked up, but 
there is a slow progress.
    Mr. Chairman, I have got to----
    Chairman Royce. Well, we understand, Mr. Secretary. We 
thank you for your time today, and we wish you luck on your 
trip. And let me share with the members here that the record 
remains open for any members to submit questions. Again, we 
thank the members for their participation.
    Again, thank you, Mr. Secretary. We stand adjourned.
    Secretary Kerry. Thank you, Mr. Chairman. Thank you, 
Congressman Engel. Thank you.
    [Whereupon, at 3:50 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                      Material Submitted for the Record



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]

</pre></body></html>
